     Department of Homeland Security




       FEMA Should Recover $6.7 Million of Ineligible 

       or Unused Funds Awarded to Cameron Parish, 

               Louisiana, for Hurricane Rita 





DD-13-06                                       February 2013

                                     OFFICE OF INSPECTOR GENER4.L
                                          Department of Homeland Socurity



                                                                    2013

    MEMORANDUM FOR:                       George A. Robin~on

                                          "
                                          F

    FROM:
                                                                eral
                                          Office of Emergency Management Oversight

    SUBJECT:                              FEMA Should Recover $6.7 Million of Ineligible or
                                          Unused Funds Awarded to Cameron Parish, Louisiana, for
                                          Hurricone Rita
                                          FEMA Disaster Number 1607-DR-LA
                                          Audit Report DD-13·06

    We audited Pub lic Assistance grant funds awarded to Cameron Parish, Louisiana (Par ish )
    (Public AHistance Identi fi cation Number 023-99023-(0). Ou r audit objective was to
    determine whether the Parish accounted for and expended Federal Emergency
    Management Agency (FEMA) grant funds according to Federal regulations and FEMA
    guidelines.

    The louisiana Govern or's Office of Homeland Security an d Emergency Preparedness
    (GOHS EP ), a FEMA grantee, awarded the Parish $63.2 million for damages resulting
    from Hurricane Rita, which occurred on September 24, 200S The award provided
    100 percent FEMA fu nding for 126 large projects and 213 small projects.' The audit
    covered the period September 24, 2005, through Novemb er 28, 2012, the cutoff date of
    ou r audit, and in cluded a detailed rev iew of 52 projects totaling $45.6 million, or
    72 percent of the tota l award, and a limite d review of insurance issues and costs related
    to one architectura l and engineering firm (see Exhibit, Schedule of Projects Audited).'
    Tabl e 1 shows t he gros~ and net award before and afte r insurance red uctions for all
    projects, those in our audit scop e, and additional limited review projects.




    : Fl'deral regulation, ot the time 01 th e di,a.,t", .,~l th~ large project th re,hold.t $55.500
    'We audited the Eros< 3r'><J unt 01 S53.8 mili;on .w.,ded belore reduct i"",,, for in,uraMe


www.oiE.dh,.go-;                                                                                       DD·13'{)6
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security

                               Table 1. Gross and Net Award Amounts 

                                     Gross Award      Insurance    Net Award
                                        Amount       Reductions       Amount
                    All Projects      $77,177,351 $(13,997,561)     $63,179,790
                    Audit Scope       $53,778,012 $ (8,157,631)     $45,620,381
                  Limited Review        $6,165,545 $(2,403,932)       $3,761,613

   We conducted this performance audit between October 2011 and November 2012
   pursuant to the InspectorfGeneralfActfoff1978, as amended, and according to generally
   accepted government auditing standards.3 Those standards require that we plan and
   perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based upon our audit objective. We believe that
   the evidence obtained provides a reasonable basis for our findings and conclusions
   based upon our audit objective. We conducted this audit according to the statutes,
   regulations, and FEMA policies in effect at the time of the disaster.

   We interviewed FEMA, GOHSEP, and Parish officials; reviewed judgmentally selected
   project costs (generally based on dollar value); and performed other procedures
   considered necessary to accomplish our audit objective. We did not assess the adequacy
   of the Parish’s internal controls applicable to its grant activities because it was not
   necessary to accomplish our audit objective. We did, however, gain an understanding
   of the Parish’s method of accounting for disaster-related costs and its procurement
   policies and procedures.


                                             RESULTS OF AUDIT

   The Parish generally accounted for FEMA grant funds on a project-by-project basis as
   required by Federal regulations. However, the Parish did not always expend public
   assistance grant funds according to Federal regulations and FEMA guidelines. As a
   result, we identified $6,392,126 of ineligible costs comprised of the following:

       •	 Finding B: $3,775,600 of ineligible, duplicate, and excessive project 

          management costs; 

       •	 Finding C: $1,778,703 for ineligible contract costs for a noncompetitive contract;
       •	 Finding D: $514,714 for miscellaneous ineligible costs;
       •	 Finding F: $240,034 for excessive billings; and
       • Finding G: $83,075 in unallocated insurance.


   3
    This is the second report for this audit. We issued the first report on August 27, 2012: Directf
   AdministrativefCostsfPaidfforfFEMAfPublicfAssistancefGrantfFunds,fDD-12-19.f


www.oig.dhs.gov                                         2                                         	    DD-13-06 

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security

   In addition, FEMA should deobligate $317,245 of unused funds on completed projects
   and put the funds to better use (finding E). Several of these findings occurred because
   GOHSEP, as the grantee, did not adequately monitor the Parish’s subgrant activities.
   Therefore, FEMA should also require GOHSEP to—

       •	 Instruct the Parish to improve its procurement procedures for future disasters by
          including federally required contract provisions in its contracts and establishing
          the necessary affirmative steps to assure the use of small businesses, minority-
          owned firms, women’s business enterprises, and labor surplus area firms when
          possible (finding C);

       •	 Ensure that the Parish’s claims support full project values (before reductions)
          (finding H); and,

       •	 Finalize and close out the Parish’s completed projects within 6 months of this
          report (finding H).

   Finding A: Direct Administrative Costs

   The Parish claimed $4.2 million out of $4.6 million that FEMA obligated for direct
   administrative costs that are ineligible, duplicate costs. This occurred because FEMA
   retroactively applied laws, regulations, and policies applicable to disasters declared after
   November 2007. These are ineligible, duplicate costs because FEMA provides a sliding-
   scale administrative allowance that covers all direct and indirect costs associated with
   managing and administering subgrants under the public assistance program for all
   disasters declared beforefNovember 13, 2007 (44 CFR 207.9(b)).4 As a result, FEMA
   inappropriately authorized the retroactive application of laws, regulations, and policies
   regarding direct administrative costs that became eligible for disasters declared afterf
   November 13, 2007.

   We do not question these duplicate, ineligible costs because we addressed this issue in
   a previously issued management advisory report, “Direct Administrative Costs Paid for
   FEMA Public Assistance Grant Funds.”5 The report questioned the retroactive application
   of $45.5 million in direct administrative cost for FEMA Region VI, which included the
   $4.6 million FEMA obligated for the Parish. In its response, FEMA said that it will review
   and reconcile project worksheets prepared for direct administrative costs, and
   deobligate costs that exceed established limits or that lack sufficient documentation.
   4
     On October 11, 2007, FEMA published the ManagementfCostsfinterim rule (FederalfRegisterf72 FR 57869) 

   that established the management cost rates for emergencies and major disasters. The rule went into 

   effect on November 13, 2007, and was implemented at 44 CFR 206, FederalfDisasterfAssistance, and 

   44 CFR 207, ManagementfCosts.

   5
     See footnote 3. 



www.oig.dhs.gov                                       3	                                              DD-13-06

                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security

   However, FEMA also said that as an incentive for hurricanes Katrina and Rita subgrantees,
   it will allow up to 3 percent of eligible costs for direct administrative cost for completed
   projects submitted for final project certification by August 29, 2013, and will deobligate
   the balance of estimated direct administrative costs. As authority for providing this
   incentive, FEMA cited section 638(a) and (f) of the PostfKatrinafEmergencyfManagementf
   ReformfActfoff2006f(P.L.f109-295), which directs that FEMA’s Administrator provide
   incentives for the timely closeout of public assistance projects under sections 406 and
   407 of the Stafford Act in the states of Mississippi, Louisiana, Alabama and Texas to
   effectuate the delivery of assistance to those affected by Hurricane Katrina and
   Hurricane Rita. FEMA also agreed that paying direct administrative costs in excess of
   the sliding scale for any other disasters is improper.

   Finding B: Project Management Accounting and Costs

   The Parish’s claim included $3.8 million of ineligible project management costs. These
   project management costs are ineligible because (1) the Parish did not account for them
   on a project-by-project basis, (2) they duplicated architectural and engineering work,
   (3) they included ineligible overhead costs, and (4) they duplicated grant management
   costs already covered by the administrative allowance. The sliding-scale administrative
   allowance covers all direct and indirect costs associated with managing and administering
   subgrants under the public assistance program for all disasters declared before
   November 13, 2007 (44 CFR 207.9(a) and (b)).

   The Parish claimed these costs because GOHSEP requested, and officials from the FEMA
   Louisiana Transitional Recovery Office approved, a pilot program allowing subgrantees
   to claim prorated or allocated costs. FEMA, however, does not have the authority to
   implement a pilot program that is contrary to Office of Management and Budget cost
   principles that define direct costs as those that can be identified specifically with a
   particular final cost objective.6 The following amounts comprise the total $3,775,600 of
   ineligible project management costs we question:

       •	 $2,254,969 was ineligible because the costs were for “program-wide” tasks not
          identified to specific projects.
       •	 $1,062,419 was ineligible because the costs duplicated architectural and 

          engineering costs. 

       •	 $360,398 was ineligible because the costs were for ineligible overhead costs.
       •	 $97,814 was ineligible because the costs duplicated administrative costs.



   6
    Applicable cost principles (OMB Circular A-87, Revised May 10, 2004) defines a direct cost as one that
   can be identified specifically with a particular final cost objective.


www.oig.dhs.gov                                        4	                                               DD-13-06

                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security

   Project Management Accounting

   The Parish claimed $2.3 million for project management costs that were ineligible
   because they were for “program-wide” tasks not identified to specific projects. FEMA
   obligated $4.9 million for Project 4636 as part of a single project management pilot
   program for Louisiana in Region VI.7 The scope of work for project management
   specified 17 tasks and project management cost estimates from 60 projects for the
   Parish. The contractor for program management performed project management and
   direct administrative work as part of the agreement with the Parish.

   We reviewed selected timesheets in which the contractor documented $2.3 million of
   “program wide” activities. The timesheets included descriptions such as (1) program
   management, planning, recruiting, interviewing, and staffing; (2) meetings with the
   Parish, GOHSEP, and FEMA; (3) project assessments; (4) setup of master and work
   breakdown schedules; (5) project coordination; (6) review of the Cost Estimating Format
   instruction guide; and (7) data entry. These activities and the resulting costs were
   general program expenses not tracked on a project-by-project basis, as required by
   44 CFR 206.205(b) and included grant administration activities, contrary to FEMA 9525.6
   guidance.

   The Parish’s contractor explained that they devised an allocation method, or a
   “programmatic problem solving approach,” for the $2.3 million “program-wide” fees
   because activities covered so many projects that it was impractical to track them on an
   individual project basis. The Parish claimed these “program-wide” fees because State
   and FEMA Region VI officials permitted subgrantees in the pilot program to claim
   prorated or allocated fees even though they did not track the fees to specific projects as
   FEMA 9525.6 requires. When costs cannot be tracked directly to a specific cost center,
   they are considered indirect costs.8 In fact, that is the very definition of indirect costs,
   which are specifically ineligible for disasters declared before November 13, 2007
   according to 44 CFR 207.9(b). As stated previously, FEMA said that it may allow up to
   3 percent of eligible costs for direct administrative costs. However, all indirect
   administrative and management costs are still ineligible.




   7
     FEMA began the Single Project Worksheet (PW) Project Management Pilot Program in September 2007 

   at the request of GOHSEP to simplify the process for funding eligible project management costs. FEMA’s 

   Louisiana Recovery Office agreed to undertake the single PW approach for project management as a pilot 

   initiative to provide project management funding for severely impacted subgrantees using a single project, 

   or a limited number of aggregated projects grouped logically at the subgrantee’s request. The pilot 

   program requires subgrantees to manage the project management contractor, maintain documentation, 

   and account for costs on a project-by-project basis. 

   8
     See footnote 6. 



www.oig.dhs.gov                                         5                                                DD-13-06

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

   Therefore, we question $2.3 million of project management costs as ineligible because
   the Parish did not track them on a project-by-project basis as required, and because
   they are duplicate costs under the administrative allowance and included in the
   contractor’s time-and-materials billing rates.

   When we discussed this finding with Parish officials, they said that they were going
   through a period of refinement to determine which tasks, as defined by FEMA, were
   necessary. They emphasized that any project management guidance received from
   GOHSEP and FEMA always came after the fact. FEMA disagreed with the finding and
   said that it would respond with a reasonableness-of-costs analysis based on locality,
   taking into account the remote location of the Parish. FEMA also noted that the label
   “pilot” was applied in error.

   DuplicationfoffArchitecturalfandfEngineeringfCostsf

   The Parish claimed approximately $1.1 million of project management costs for tasks
   related to oversight and coordination of construction firms on projects. The Parish’s
   project management consultant billed for tasks specified in the American Institute of
   Architects contracts that are usually performed by architectural and engineering firms
   working directly with construction contractors. Therefore, we question $1.1 million as
   an ineligible duplication of work because the Parish already paid its architectural and
   engineering firm for these tasks, and the Parish should not receive reimbursement for
   these tasks again as project management costs. A Parish official acknowledged that
   there may have been duplicative efforts in the early stages of the contract when the
   program manager performed construction management oversight. Parish officials later
   amended the program manager’s contract to discontinue those services.

   IneligiblefOverheadfCostsf

   The Parish claimed $360,398 in project management costs that were ineligible, indirect
   overhead expenses. The program management contractor billed for overhead expenses
   of office furniture, equipment, mobilization, supplies, reproductions, and network and
   telecom systems. The claim also included consultant expenses for travel, meals,
   lodging, and mileage. The Parish did not directly relate these expenses to individual
   projects. FEMA 9525.6 states that project management expense must be specifically
   accountable to a work project and must not contain any costs for grant administration
   activities. Therefore, we question $360,398 as ineligible because the Parish did not
   attribute these costs to specific work projects, and the costs included indirect costs
   already covered by the administrative allowance and the contractor’s time-and-
   materials billing rates.




www.oig.dhs.gov                               6                                       DD-13-06

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

   DuplicationfoffAdministrativefAllowancef

   The Parish claimed $97,814 for consultant-billed tasks for project management on a
   project-by-project basis, but the task descriptions duplicated activity designated as
   reimbursable under the administrative allowance (44 CFR 207.9(b)). FEMA designated
   17 project management tasks in the scope of work for Project 4636. However, we
   consider two of the tasks (“review contractor payments” and “maintain detailed project
   files”) as administrative in nature. Therefore, we question $97,814 of contract costs for
   time coded to those tasks as a duplication of the administrative allowance.

   Finding C: Procurement
   f
   The Parish complied with most Federal procurement standards in awarding 40 contracts
   totaling $52.0 million of disaster-related work. However, the Parish did not (1) provide
   full and open competition for one architectural and engineering contract totaling
   $1.8 million; (2) maintain sufficient records to detail the significant history of
   procurement for its $9.4 million program management contract; (3) include a
   reasonable cost ceiling in a time-and-materials contract (same $9.4 million program
   management contract); (4) include the required Federal provisions in all of its contracts;
   or (5) take all necessary affirmative steps to assure the use of small businesses, minority
   firms, women’s business enterprises, and labor surplus area firms when possible for
   contract work. As a result, full and open competition did not occur and FEMA has no
   assurance that costs were reasonable for this contract. Therefore, we question
   $1,778,703 of ineligible contract costs for the non-competitive contract.

   Federal regulations at 44 CFR 13.36, in part, require subgrantees to comply with the
   following procurement standards:

       •	 Perform procurement transactions in a manner providing full and open
          competition except under certain circumstances. One allowable circumstance is
          when there is a public exigency or emergency for the requirement that will not
          permit a delay resulting from competitive solicitation 13.36(c)(1) and (d)(4)(i)(B);

       •	 Maintain sufficient records to detail the significant history of procurement.
          These records will include, but are not necessarily limited to, the following:
          rationale for the method of procurement, selection of contract type, and
          contractor selection or rejection (13.36(b)(9));

       •	 Use time-and-materials contracts only if the contract includes a ceiling price that
          the contractor exceeds at its own risk (13.36(b)(10)(ii));

       •	 Include specific provisions in subgrantees’ contracts (13.36(i)); and


www.oig.dhs.gov                                 7	                                         DD-13-06

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security



       •   Take affirmative steps to assure the use of small and minority firms, women’s
           business enterprises, and labor surplus area firms when possible (13.36(e)).

   Non-Competitive Architectural and Engineering Contract

   The Parish awarded a non competitive architectural and engineering contract totaling
   $1.8 million to a contractor that it had used before Hurricane Rita. This pre-existing
   contract was more than 2 decades old, and the Parish incorporated it by reference into
   at least 17 Hurricane Rita disaster-related construction contracts. When we asked for a
   more recent agreement, the Parish provided documentation supporting a 2009 bid
   proposal and contract. However, the proposal was for Hurricane Ike projects.
   Regardless, the Parish made no effort to update or compete this agreement for at least
   4 years between 2005 and 2009.

   The Parish also provided documentation of an October 2009 teleconference with
   GOHSEP to discuss GOHSEP’s analysis. The analysis concluded that this architectural
   and engineering contractor’s fees were reasonable and in line with the State guidelines.
   Price reasonableness, however, is only one of the goals of Federal contracting
   requirements. FEMA’s practice has been to allow contract costs it considers reasonable,
   regardless of whether the contract complies with Federal procurement regulations.
   However, Federal procurement policies do not authorize this practice unless lives and
   property are at stake, because the goals of proper contracting relate to more than just
   reasonable cost. Full and open competition usually increases the number of bids
   received and thereby increases the opportunity for obtaining reasonable pricing from
   the most qualified contractors. Full and open competition also helps to discourage and
   prevent favoritism, collusion, fraud, waste, and abuse. Parish officials disagreed with
   this finding and said that the 2009 bid proposal and new contract were not limited to Ike
   projects, but also included Rita projects. However, documents the Parish officials
   provided after the exit conference did not support their statement. Further, Parish
   officials emphasized that GOHSEP and FEMA always provided guidance after the fact.

   Program Management Contract

   The Parish awarded a time-and-material contract valued at $9.4 million for program
   management services. The scope of the contract included project planning, monitoring,
   construction cost estimating, bid support, management oversight, FEMA project
   worksheet reviews, and other architectural and engineering-related duties. The Parish
   published a notice in February 2008 and received proposals from four contractors. We
   did not question this contract because the Parish provided sufficient documentation
   demonstrating that the contract was competed. However, the Parish needs to be aware



www.oig.dhs.gov                                8                                       DD-13-06

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

   that it did not maintain adequate solicitation and award records for this contract, justify
   the use of a time-and-material contract, or include a reasonable ceiling to limit costs.

   MaintainingfProcurementfHistoryf–fThe Parish could not provide records of the program
   management proposal presentations, or the Parish’s method for conducting and scoring
   technical evaluations as required (44 CFR 13.36(d)(3)(iii)). Parish officials also could not
   provide evaluation tabulations or meeting minutes documenting their rationale for
   selection. Federal regulations require subgrantees to maintain records sufficient to
   describe the significant history of procurement, rationale for the method of
   procurement, selection of contract type, contractor selection or rejection (44 CFR
   13.36(b)(9)). Parish officials did provide meeting minutes documenting the approval of
   the contract for program management and a letter describing the procurement history,
   but could not find other documents to support the evaluation process.
   f
   TimefandfMaterialfContractf-fThe Parish awarded a time and material contract for
   program management that contained a limit of $50 million. However, this $50 million
   ceiling was unreasonably high and therefore meaningless as a cost control measure for a
   contract award of $9.4 million. The Parish subsequently amended this “not-to-exceed”
   amount of $9.4 million to match the total of the obligated project worksheets for direct
   administrative costs and project management.

   Contract Provisions

   The Parish did not include the contracting provisions in any of its contracts or
   subcontracts that 44 CFR 13.36(i) requires. These contract provisions document the
   rights and responsibilities of the parties and minimize the risk of contract
   misinterpretations and disputes. For example, the termination for cause provision
   (13.36(i)(2)) gives the subgrantee the right to end an agreement with a contractor for
   non-performance; and the access to records provision (13.36(i)(10) gives the
   subgrantee, grantee, and FEMA the right to examine the contractor’s records. Although
   we did not question any costs because of the Parish’s failure to include these contract
   provisions, the Parish needs to include them in future contracts and subcontracts.

   Steps To Assure Participation of Small Business and Minority Contractors

   The Parish did not take the required steps to assure the use of small businesses,
   minority-owned firms, women’s business enterprises, and labor surplus area firms when
   possible (44 CFR 13.36(e)). These required affirmative steps include using the services
   and assistance of the Small Business Administration and the Minority Business
   Development Agency of the Department of Commerce, and requiring the prime
   contractor, if subcontracts are to be used, to take the affirmative steps listed in Federal
   regulations 44 CFR 13.36(e)(2)(i) through (v). Parish officials said that their engineers


www.oig.dhs.gov                                 9                                         DD-13-06

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

   and architects were responsible for handling the bid specifications and advertising, and
   admitted that they should have exercised better oversight. However, Parish officials
   were more concerned about cost than targeting specific contractors or businesses.

   Although the Parish did not have steps in place to solicit awards from small businesses,
   minority-owned firms, women’s business enterprises, and labor surplus area firms, it did
   award 18 of its 40 contracts to such businesses (totaling $34.7 million of the $52.0 million
   awarded). As such, we did not question the other disaster-related contract costs
   because the Parish otherwise competitively bid its contracts, which included awards to
   small and disadvantaged businesses. However, the Parish needs to improve its
   procurement procedures for future disasters by including federally required contract
   provisions in its contracts, and establishing the necessary affirmative steps to assure
   compliance with all Federal procurement standards.

   Finding D: Miscellaneous Ineligible Costs

   We identified $514,714 of miscellaneous ineligible costs that the Parish submitted in its
   claim to GOHSEP. We discussed these ineligible costs with Parish officials, who agreed
   with us and subsequently corrected and resubmitted their claim to GOHSEP. The
   ineligible costs included—

       •	 UnauthorizedfWorkf–f$286,600 not included in the approved scopes of work on
          four projects (140, 977, 2664, and 3050.)
       •	 DuplicatefCostsf–f$100,814 either claimed on two projects or billed twice. The
          Parish claimed the same $93,533 on two projects (3680 and 884) for
          architectural and engineering and geotechnical services. The Parish also billed
          $2,183 for the same work performed on the same day at the Parish’s fire
          stations (Project 140) on two different invoices (invoice 4627 and invoice 5426).
       •	 ClaimsfAppliedftofWrongfProjectsf–f$67,168 for costs the Parish applied to the
          wrong projects. The Parish claimed $25,958 under Project 3680 for architectural
          and engineering work related to Project 884, and $41,210 under Project 4116 for
          architectural and engineering work related to Project 4417.
       •	 CostsfNotfRelatedftofHurricanefRita – $52,133 the Parish billed for cleanup and
          associated A/E fees for three projects (140, 2615, and 2677) related to Hurricane
          Ike, not Hurricane Rita.
       •	 UnsupportedfEquipmentfCostsf–f$6,180 of unsupported force account equipment
          costs. The Parish‘s employees used trucks, trailers, and backhoes to complete
          work on Project 4116. However, the Parish’s equipment-use hours did not
          reconcile to the operating hours listed on timesheets for four employees.
       •	 ExcessivefFringefBenefitfChargesf–fThe Parish inadvertently used an incorrect
          annual wage to calculate fringe benefit rates for force account labor on Project
          4116. As a result, the Parish claimed $1,819 in excessive fringe benefits.


www.oig.dhs.gov                                10                                  	      DD-13-06

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



   Because the Parish deleted these ineligible costs from its claim to GOHSEP after we
   informed the Parish of the ineligible costs, we consider this finding and the related
   recommendation to be resolved and closed.

   Finding E: Unused Federal Funds

   The Parish completed work and claimed $5,590,534 for four projects, which was
   $317,245 less than the total amount FEMA estimated and approved for the four
   projects. The Parish completed the projects as of November 2011. Federal regulations
   at 44 CFR 206.205(b)(1) require the grantee to submit an accounting of eligible cost for
   each large project “as soon as practicable after the subgrantee has completed the
   approved work and requested payment.” We consider 6 months after the subgrantee
   has completed the approved work and requested payment a reasonable amount of time
   for the grantee to complete its reviews of costs claimed and submit an accounting of
   eligible costs to FEMA. Therefore, FEMA should require GOHSEP to submit closeout
   documentation for the Parish’s projects as soon as possible, so that FEMA can perform
   final closeouts of the Parish’s projects and put $317,245 of unused Federal funds to
   better use. Parish officials agreed, but said they received conflicting guidance from
   GOHSEP on deobligating unused funds.

   Finding F: Excessive and Prohibited Contract Costs

   The Parish claimed $240,034 in excessive and prohibited contract costs resulting from
   project management billing errors, incorrectly calculated architectural and engineering
   fees, and cost-plus-percentage calculations applied to other direct management costs.

   ExcessivefContractfCostsf–fThe Parish’s claim included $160,840 in excessive contract
   costs consisting of $119,205 for project management fees on Project 4636 and
   $41,635 for architectural and engineering costs on Projects 2615 and 2664. The project
   management fees resulted from contractor billings at higher labor category rates for
   some employees than the assigned labor category rates listed on the contractor’s
   Program Management Team Listing. The program manager said that he will work with
   the Parish to refund the appropriate amount for any billing errors.

   For Project 2615, the architectural and engineering contractor incorrectly charged the
   Parish an additional $38,595 in fees because it calculated the fees using the Louisiana
   State Fee Curve formula, modification factor of 1.15 instead of 1, as the contract
   specified. For Project 2664, the contractor invoiced the Parish an additional $3,040 in
   design fees above the contract rate of 5 percent of the construction cost for design.
   Parish officials agreed to adjust the closeout documents to reflect the correct amount
   for architectural and engineering for Projects 2615 and 2664, and to independently seek


www.oig.dhs.gov                                11                                          DD-13-06

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

   reimbursement from the architectural and engineering contractor for the overpayment.
   Because the Parish claimed contract costs in excess of contract terms, we question
   $160,840 of ineligible excessive contract costs.

   Cost-Plus-PercentagefCalculationsf–fThe Parish claimed $79,194 of ineligible markups on
   other direct project management costs ($75,684) and A/E fees ($3,510). Federal
   regulations at 44 CFR 13.36(f)(4) prohibit the use of the cost-plus-a-percentage-of-cost
   method of contracting. Therefore, we question $79,194 as ineligible cost-plus-
   percentage-of-cost markups. Parish officials agreed and will adjust the claims. GOHSEP
   also identified and did not allow the ineligible markups for direct project management.
   However, we question the $240,034 ineligible contract costs because, at the time of our
   audit, these costs remained in the Parish’s claim.

   Finding G: Insurance

   FEMA should complete its insurance review, allocate the remaining $83,075 in
   applicable insurance proceeds to the Parish’s projects, and disallow those costs as
   ineligible. The Parish received $7,259,409 in insurance proceeds for property damages.
   However, FEMA allocated only $7,176,334 in actual and anticipated insurance proceeds
   to the Parish’s projects. Federal regulations at 44 CFR 206.253(a) require that eligible
   costs be reduced by the actual amount of insurance proceeds relating to the eligible
   costs. FEMA officials explained that they did not complete the allocations because there
   were pending project versions that required insurance review. FEMA officials said that
   they will have the final allocation once they complete all the versions.

   Finding H: Grant Management

   Several findings (B, C, D, and E) occurred in part because GOHSEP, as the grantee, did
   not provide proper guidance to the Parish, and did not adequately manage and monitor
   the day-to-day operations of the subgrantee to ensure compliance with Federal
   regulations. Federal regulation 44 CFR 13.40(a) requires the grantee to manage the day-
   to-day operations of subgrant activity and monitor subgrant activity to assure
   compliance with applicable Federal requirements. In addition, we have concerns
   regarding GOHSEP’s handling of claims and project closeouts.

   Submission of Claims

   The Parish did not understand that it had to submit documentation to support the gross
   eligible amount of projects before reductions for anticipated or actual insurance
   proceeds. Therefore, the Parish limited submission of documentation supporting its
   claims to the obligated (net) amount of the projects, rather than the gross eligible
   amount. Parish officials said that they based these submissions on guidance that


www.oig.dhs.gov                              12                                        DD-13-06

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

   GOHSEP provided. Parish officials also said that, when there were insurance reductions
   to a project’s gross amount, they delayed submitting invoices to GOHSEP to support the
   full value of projects until the projects were ready for closeout. In several instances, the
   Parish submitted partial invoices for reimbursement to match the remaining obligated
   funds. GOHSEP acknowledged that subgrantees should submit claims to support the
   value of the project before applicable reductions. Parish officials said that GOHSEP
   notified them that it would send out a notification of the change in guidance to submit
   all invoices. Parish officials also said that they will begin providing all the documents to
   GOHSEP when the Parish requests closeout to support the gross project amount for all
   projects.

   Project Closeout

   The Parish completed all but 3 of its 339 projects more than a year ago and completed
   most projects at least 2 years ago. Although the Parish completed all projects, GOHSEP
   has not provided closeout information to FEMA. Federal regulations at 44 CFR
   206.205(b)(1) require grantees to make an accounting to the FEMA Regional
   Administrator of eligible costs for each approved large project “as soon as practicable
   after the subgrantee has completed the approved work and requested payment.”
   Therefore, GOHSEP should complete its reviews of all the Parish’s projects and submit
   an accounting of eligible costs for closeout.

   Without timely closeouts, Federal funds remain obligated as a liability against FEMA’s
   appropriated funds and can limit FEMA’s ability to authorize other disaster assistance
   projects. We consider 6 months after the subgrantee has completed the approved work
   and requested payment a reasonable amount of time for the grantee to complete its
   reviews of costs claimed and submit an accounting of eligible costs to FEMA.

   As of October 31, 2012, FEMA had approved $39.5 million in state management costs
   that GOHSEP had requested since September 2005 for managing the $624.7 million in
   approved grant funds to the State of Louisiana for Hurricane Rita. Although we are not
   commenting on the overall reasonableness of these costs, we want to point out that
   FEMA is paying GOHSEP to manage this disaster, and therefore should require GOHSEP,
   as the grantee, to develop and implement procedures to better manage its
   responsibilities under this grant. Specifically, FEMA should require GOHSEP, as the
   grantee, to (1) ensure that the Parish’s claims support full project values before
   reductions and (2) finalize and close out the Parish’s completed projects within
   6 months of this report. GOHSEP officials did not provide comments on this finding.




www.oig.dhs.gov                                13                                          DD-13-06

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security

                                          RECOMMENDATIONS

   We recommend that the Regional Administrator, FEMA Region VI:

   Recommendation #1: Disallow $3,775,600 of ineligible project management costs
   (finding B).

   Recommendation #2: Disallow $1,778,703 of ineligible contract costs (finding C).

   Recommendation #3: Disallow $514,714 of miscellaneous ineligible costs (finding D).
   Because the Parish deleted these ineligible costs from its claim to GOHSEP, we consider
   this recommendation to be resolved and closed.9

   Recommendation #4: Deobligate $317,245 of unused funds and put them to better use
   (finding E).

   Recommendation #5: Disallow $240,034 of excessive and prohibited contract costs
   (finding F).

   Recommendation #6: Complete the insurance review and allocate $83,075 of
   unapplied insurance proceeds to the total cost of the Parish’s projects and disallow
   those costs as ineligible (finding G).

   Recommendation #7: Direct GOHSEP to—

       •	 Instruct the Parish to improve its procurement procedures for future disasters by
          including federally required contract provisions in its contracts, and establishing
          the necessary affirmative steps to assure the use of small businesses, minority-
          owned firms, women’s business enterprises, and labor surplus area firms when
          possible (finding C);

       •	 Ensure that the Parish’s claims support full project values (before reductions)
          (finding H); and

       •	 Finalize and close out the Parish’s completed projects within 6 months of this
          report (finding H).




   9
     Because FEMA had not yet obligated these ineligible costs, we will report them as costs avoided rather
   than costs recovered.


www.oig.dhs.gov                                      14                                      	        DD-13-06

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP 


   We discussed the results of our audit with Parish officials during our audit and included 

   their comments in this report, as appropriate. We also provided a draft report in advance 

   to FEMA, GOHSEP, and Parish officials and discussed it at exit conferences held with 

   FEMA on November 10, 2012, and with GOHSEP and Parish officials on November 28, 

   2012. FEMA officials generally agreed with the findings and recommendations except 

   for finding B. Parish officials disagreed with findings A and B. GOHSEP officials did not 

   comment on the findings.


   Within 90 days of the date of this memorandum, please provide our office with a 

   written response that includes your (1) agreement or disagreement, (2) corrective 

   action plan, and (3) target completion date for each recommendation. Also, please 

   include responsible parties and any other supporting documentation necessary to 

   inform us about the current status of the recommendation. Until we receive your 

   response, we will consider the recommendations to be open and unresolved. 


   Consistent with our responsibility under the InspectorfGeneralfAct,fwe will provide 

   copies of our report to appropriate congressional committees with oversight and 

   appropriation responsibility over the Department of Homeland Security. We will post 

   the report on our website for public dissemination.


   Major contributors to this report were Tonda Hadley, Director; Paige Hamrick, 

   Audit Manager; James Mitchell, Auditor-in-Charge; and Tai Cheung, Program Analyst. 


   Please call me with any questions at (202) 254-4100, or your staff may contact 

   Tonda Hadley, Director, Central Regional Office, at (214) 436-5200.





www.oig.dhs.gov                               15                                         DD-13-06

                                         OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security
                                                                                                             EXHIBIT
                                             Schedule of Projects Audited

                                                                                                                       Unused
   Project                                                                                                             Federal
Number and Net Award            Finding        Finding    Finding          Finding     Finding     Total Costs          Funds
            10
 Category        Amount            B              C          D                F           G        Questioned        (Finding E)
   4636-E       $4,861,280 $3,775,600          $        0 $      0        $194,889                  $3,970,489         $       0
   4726-E        3,511,662              0              0         0                 0                         0                 0
   3758-C        3,017,384              0        295,382         0                0                    295,382            25,164
   2615-E        2,087,357              0         45,176    10,812           41,863                     97,851                 0
   2677-E        1,261,178              0          8,006    26,003                 0                    34,009                 0
   2664-E        1,238,937              0         82,606    95,985            3,040                    181,631                 0
   4737-E        1,070,025              0              0         0                0                          0                 0
    140-E        1,009,920              0          9,145    19,059                0                     28,204                 0
    884-E           850,400             0            400         0              242                        642             1,277
   4116-C           837,841             0         29,168    49,209                0                     78,377                 0
   2104-E           784,224             0              0         0                0                          0           256,067
   3680-E           719,592             0         18,182   124,491                 0                   142,673                 0
    977-E           685,544             0              0   152,532                 0                   152,532                 0
   3050-E           679,326             0              0    36,623                 0                    36,623                 0
   4220-G           509,755             0         41,048         0                0                     41,048            34,737
  17 Other
    Large
   Projects     21,714,150              0        551,992             0            0                    551,992                0
  20 Small
   Projects         781,806             0               0            0                                        0               0
Scope Totals
52 Projects    $45,620,381 $3,775,600         $1,081,105      $514,714    $240,034                  $5,611,453        $317,245
   Limited
   Review:
A/E Contract     3,761,613              0        697,598             0            0                    697,598                0
Insurance To Be Allocated (Finding G)                                                   83,075          83,075                0
Grand
Totals         $49,381,994 $3,775,600         $1,778,703      $514,714    $240,034     $83,075      $6,392,126        $317,245




       10
         FEMA classifies disaster-related work by type: debris removal (Category A), emergency protective measures
       (Category B), and permanent work (Categories C through G).


   www.oig.dhs.gov                                       16                                              DD-13-06
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security
                                                                                     APPENDIX

                                        Report Distribution

   Department of Homeland Security
   Secretary
   Chief Financial Officer
   Under Secretary for Management
   Audit Liaison, DHS
   Acting Chief Privacy Officer

   Federal Emergency Management Agency
   Administrator
   Chief of Staff
   Chief Financial Officer
   Chief Counsel
   Director, Risk Management and Compliance
   Interim Director, FEMA Louisiana Recovery Office
   Audit Liaison, FEMA Louisiana Recovery Office
   Audit Liaison. FEMA Region VI
   Audit Liaison, FEMA (Job Code G-12-031)

   State
   Director, Louisiana Governor’s Office of Homeland Security and Emergency Preparedness
   Audit Liaison, Louisiana Governor’s Office of Homeland Security and Emergency Preparedness
   Louisiana Legislative Auditor

   Subgrantee
   President, Cameron Parish

   Office of Management and Budget
   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress
   Senate Committee on Appropriations, Subcommittee on Homeland Security
   Senate Committee on Homeland Security and Governmental Affairs
   House Committee on Appropriations, Subcommittee on Homeland Security
   House Committee on Homeland Security
   House Committee on Oversight and Government Reform




www.oig.dhs.gov                             17                                     DD-13-06

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
